Report No. D2008-033          December 28, 2007




    Training for U.S. Ground Forces at Army
      Maneuver Combat Training Centers
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ARFORGEN              Army Force Generation
CONUS                 Continental United States
CTC                   Combat Training Center
ETC                   Exportable Training Capability
JRTC                  Joint Readiness Training Center
MCTC                  Maneuver Combat Training Center
NTC                   National Training Center
TRADOC                U.S. Army Training and Doctrine Command
                            OF DEFENSE
             nC[:>"""'T'H~"'T

                          NAVY DRIVE

                       VIFIGI'NIA 22202--4704

                                                                      (28


                                        DEPARTMENT OF THE ARJv1Y

                          Ground Forces at Anny Maneuver Combat
                           D-2008-033)


                                 and comment. We considered
                         H',r,p',lT
                           report in preparing the final report.

                               all recommendations be resolved promptly.
m2lllagernellt nn"'JII;p additional comments on the recommendation­
           concurrence or nonconcurrence, plamled actions, and the dates


             mal1a:gerner1t comments in electronic fonnat (Adobe
    {~t~~~~~n~~~iii1~~±[~~Copies the management comments must
    ;n                        officiaL We cannot accept the / Signed /
                       If you arrange to send classified comments
                        SECRET Intemet Protocol Router Network


         C01lli(~SH~S extended   to the      Questions should be directed
                                  (DSN 664-8876) or Ms. Melissa M.
                                     Appendix B for the report distribution.
                                cover.

                                      the Deputy Inspector General for Auditing:




                       As~nstantInspector General
                           Readiness and Operations Suppori
                Department of Defense Office of Inspector General
Report No. D-2008-033                                                    December 28, 2007
   (Project No. D2007-D000LH-0108.000)

                   Training for U.S. Ground Forces at Army 

                     Maneuver Combat Training Centers 


                                 Executive Summary 


Who Should Read This Report and Why? Officials involved in staffing Army
Maneuver Combat Training Centers should read this report to understand the importance
of filling Observer/Controller authorizations at a higher priority.

Background. In the last 3 years, the Army has been transforming its traditionally
division-centric force to a more flexible, agile force. Part of this transition has included a
restructuring of the Operations Groups, specifically Observer/Controllers, at Army
Maneuver Combat Training Centers.

This is one in a series of reports concerning training for U.S. ground forces supporting
Operation Iraqi Freedom. This report addresses the priority of staffing
Observer/Controllers at Army Maneuver Combat Training Centers.

Mission rehearsal exercises conducted at Army Maneuver Combat Training Centers
serve as the final collective training event for units deploying in support of Operation
Iraqi Freedom. Observer/Controllers are the foundation of this training because they
control engagements and operations, observe unit performance, teach doctrine, monitor
safety, and provide feedback to units through after-action reviews.

Results. The Army’s Maneuver Combat Training Centers are providing military
positions as part of an overall restructuring process and to meet the training requirements
of a more modular force. However, training for ground forces could be negatively
impacted by this restructuring if Observer/Controller positions are not staffed near
full-strength in FY 2009. Specifically, the full benefit of combat training may be
degraded and the amount of critical feedback provided by the Observer/Controllers
during training may be reduced. To prevent this from happening, priority for staffing
Observer/Controllers should be increased from current levels dictated in Army manning
guidance. (See the Finding section of the report for the detailed recommendation.)

Management Comments and Audit Response. The Director of Military Personnel
Management, Army Office of the Deputy Chief of Staff for Personnel, G-1, neither
concurred nor nonconcurred with the recommendation. The Director stated that the
Army is currently reviewing the Active Component Manning Guidance, including an
in-depth analysis of all Army organizations, and will use our report in the review. We
consider the comments partially responsive and request that the Army provide comments
on the final report by January 25, 2008. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.
Table of Contents 


Executive Summary                                                           i


Background                                                                  1


Objectives                                                                  3


Review of Internal Control Program                                          3


Finding 

      Training for U.S. Ground Forces at Army Maneuver Combat Training 

        Centers                                                             4

Appendixes
      A. Scope and Methodology 	                                           10 

          Prior Coverage                                                   11 

      B. Report Distribution 	                                             12 


Management Comments
      Department of the Army 	                                             13 

Background
    Combat Training Center Program. The mission of the Combat Training
    Center (CTC) Program is to provide realistic combined arms training that is in
    accordance with Army and joint doctrine and replicates actual combat. There are
    four primary combat training centers: the Joint Readiness Training Center
    (JRTC); the National Training Center (NTC); the Joint Multinational Readiness
    Center; and the Battle Command Training Program.

            JRTC, NTC, and the Joint Multinational Readiness Center. JRTC,
    located at Fort Polk, Louisiana; NTC located at Fort Irwin, California; and Joint
    Multinational Readiness Center, located at Hohenfels, Germany are collectively
    referred to as Maneuver CTCs (MCTCs). The MCTCs provide realistic
    combined arms training focused on developing soldiers, leaders, and units. The
    MCTCs train brigades, selected division maneuver assets, and special operations
    forces in combined arms operations across all levels of conflict.

           Battle Command Training Program. The Battle Command Training
    Program at Fort Leavenworth, Kansas, is the Army’s capstone CTC. The Battle
    Command Training Program supports realistic, stressful training and leader
    development, and provides computer-assisted command and staff level training in
    a simulated environment.

    This review was limited to MCTCs in the continental United States (CONUS),
    specifically JRTC and NTC.

    Responsibilities for the CTC Program. The Army Office of the Deputy Chief
    of Staff for Operations, Plans, and Policy, G-3/5/7 (referred to as Army G-3/5/7)
    serves as the CTC Program Director. The Army G-3/5/7 manages the CTC
    program and establishes program priorities and resource requirements for the
    CTCs. The Army G-3/5/7 approves all tables of distribution and allowance
    authorizations for the CTCs. The Army Office of the Deputy Chief of Staff for
    Personnel, G-1, Director of Military Personnel Management, is responsible for
    formulating, coordinating, publishing and overseeing the Active Component
    Manning Guidance. The guidance outlines manning priorities during times of
    significant personnel shortages and changing requirements. The Army Office of
    the Deputy Chief of Staff for Personnel, G-1, Human Resources Command fills
    the authorizations using Headquarters, Department of the Army Manning
    Guidance.

    The Commander, U.S. Army Training and Doctrine Command (TRADOC) is
    responsible for the administration, validation, and integration of the CTC program
    and CTC resources. The Commander, TRADOC, is responsible for providing an
    operations group at JRTC and NTC that is staffed, equipped, and organized to
    develop and execute training scenarios, and observe and analyze the performance
    of training units using Army doctrinal standards.

    Focus and Design of CTC Training. CTC training focuses on a wartime
    mission-essential task list and combat operations in a realistic environment. The
    CTC training is executed through live-fire exercises that are tailored to the


                                         1

operational environment. The CTCs design training to increase collective unit
proficiency on the most realistic and challenging training battlefield. In order to
provide a realistic training environment, training at the CTCs:

       •	 is designed to stress all battlefield operating systems in ground combat
          operations;

       •	 includes tactical scenarios where the outcome is not assured; and

       •	 ensures that consequences of tactical decisions are fully played out.

Mission Rehearsal Exercises. CTCs conduct mission rehearsal exercises for
units prior to their deployment in support of Operation Iraqi Freedom. Mission
rehearsal exercises serve as the final collective training event for deploying units
and are used to validate unit readiness. Mission rehearsal exercises provide units
with an understanding of counterinsurgency doctrine and operational tactics,
techniques, and procedures in scenarios that reflect complexities of combat,
including population interaction and cultural awareness. Mission rehearsal
exercises stress critical thinking and decision making capabilities and include
training events for cordon and search, combat patrol, combat convoy, and defeat
of improvised explosive devices.

Observer/Controllers. Observer/Controllers are the foundation of CTC training
and are part of the CTC Operations Groups. During mission rehearsal exercises,
Observer/Controllers observe unit performance, control engagements and
operations, teach doctrine, coach to improve unit performance, and monitor
safety. Observer/Controllers also provide formal feedback to units through after-
action reviews. After-action reviews reinforce Army doctrinal standards by
analyzing unit and leader performance, highlighting strengths and weaknesses
demonstrated during the training exercise, and providing feedback necessary to
improve unit performance.

Observer/Controllers are structured to match the organization of the training unit.
They are assigned to cover units based on their own branch qualifications and
military occupational specialty and most have recent combat experience. In
addition, all Observer/Controllers fill military authorizations; no civilians or
contractors are authorized to be Observer/Controllers.

Army Force Generation Training. Army Force Generation (ARFORGEN) is a
cyclical training and readiness process that synchronizes strategic planning,
prioritization, and resourcing to generate trained and ready modular expeditionary
forces. ARFORGEN is a structured progression of increased unit readiness over
time, in which units transition through three readiness pools to meet operational
requirements with increased predictability.

        Reset/Train Force Pool. In the Reset/Train Force Pool, soldiers receive
both individual and collective training that focuses on the unit’s core mission
essential task lists. Units in the Reset/Train Force Pool are generally not ready to
conduct major combat operations.




                                      2

            Ready Force Pool. A unit enters the Ready Force Pool following a
    collective training event when the commander assesses that the unit has achieved
    designated capability levels. In the Ready Force Pool, units continue their
    structured progression of collective training to meet operational requirements.

           Available Force Pool. Units move to the Available Force Pool when
    commanders assess that the unit has met designated capability levels. Units in the
    Available Force Pool are at the highest state of training and readiness capability
    and the first to be considered for sourcing operational requirements.


Objectives
    Our overall audit objective was to determine whether U.S. ground forces
    supporting Operation Iraqi Freedom were receiving training necessary to meet
    operational requirements. Specifically, we determined whether requirements
    reflect the training necessary in the area of operation and verified whether the
    ground forces are receiving the required training. In addition, we evaluated
    whether the training met the needs of the ground forces supporting Operation
    Iraqi Freedom.

    This is one in a series of reports addressing training requirements for ground
    forces supporting Operation Iraqi Freedom. Specifically, this report addresses the
    realignment of Observer/Controller authorizations at CONUS Army MCTCs and
    the impact on training for units preparing to deploy in support of Operation Iraqi
    Freedom. See Appendix A for a discussion of the scope and methodology and
    prior coverage related to the objectives.


Review of Internal Control Program
    We did not identify one overall management control program for our review of
    Observer/Controllers at Army MCTCs. Each organization has its own program
    and specific internal control mechanisms pertaining to staffing
    Observer/Controllers. However, during our review, we tested key controls
    applicable to assigning Observer/Controllers to Army MCTCs. Generally,
    management controls were in place and working effectively; however, we
    identified a control issue requiring management attention. The control issue is
    described in our finding and recommendation sections of this report, and the
    recommendation addresses the action necessary to improve the control issue.




                                         3

                   Training for U.S. Ground Forces at
                   Army Maneuver Combat Training
                   Centers
                   While Army MCTCs have successfully trained U.S. ground forces to
                   deploy in support of Operation Iraqi Freedom, future training of
                   U.S. ground forces could be negatively impacted due to planned
                   restructuring of Army MCTC Operations Groups. This is because current
                   Army manning guidance will not support future changes to staffing of
                   Observer/Controllers at Army MCTCs. As a result, U.S. ground forces
                   training to deploy in support of Operation Iraqi Freedom may not receive
                   the most realistic training and may not receive feedback that could be
                   critical to the success of their mission.


The CTC Way Ahead
           In October 2004, the Army G-3/5/7 tasked TRADOC to coordinate a holistic
           review of the CTC Program regarding changes to the CTC training strategy,
           structure, and resources needed to meet modular force1 and ARFORGEN training
           requirements. This review, titled the “CTC Way Ahead,” included input from the
           Army Major Commands and the CTCs and covered every facet of the CTC
           Program. As a result, the Deputy Commanding General for Combined Arms,
           TRADOC, issued a memorandum in March 2005 to the Army G-3/5/7, with
           recommendations on how the CTCs could support the modular force and training
           requirements. TRADOC made several recommendations, including ones dealing
           with restructuring of the Operations Groups and establishment of an exportable
           training capability (ETC). The Army G-3/5/7 approved the recommended
           changes in April 2007.

           Revised Troop Lists and Operations Groups. TRADOC recommended that the
           Army implement a new structure for the CTC Operations Groups based on a
           revised troop list. A working group reviewed the brigade combat team troop list,
           which included units, number of deployed personnel allowed, and total equipment
           authorizations. The working group revised the troop list to include core brigade
           combat team personnel and support assets essential for full spectrum operations.

           With the revised troop list, the working group reviewed coverage of
           Observer/Controllers at the MCTCs. The working group reduced the number of
           military authorizations in the MCTC Operations Group staff, exercise control, and
           higher headquarters functions as much as possible. The analysis generated a new
           structure for the MCTCs.




1
    Modular force is the name for the Army’s large-scale reorganization. The Army is converting from a
    division-centric force to more flexible and agile brigade combat teams.



                                                     4

    ETC. TRADOC also recommended that the Army establish a CONUS ETC to
    resolve the CONUS MCTC capacity shortfall. The MCTCs must conduct 34 to
    36 training events each year to support the modular force and ARFORGEN
    training requirements. However, in FY 2007, the existing MCTC training
    capacity was 28 training events per year, which left an annual shortfall of 6 to
    8 training events. To fill this annual training shortfall, TRADOC recommended
    that the Army establish a CONUS ETC that would have the capacity to conduct
    six to eight training events annually. Although the ETC at JRTC will not replace
    the normal MCTC training events, it will focus on brigade combat team readiness
    and will support training exercises at home stations, power generation platforms,
    or other remote training areas.

    The “CTC Way Ahead” working group also identified staffing efficiencies.
    Using the revised troop list, new MCTC structure, and authorizations from the
    FY 2006 table of distribution and allowances, the working group identified that
    the Army could resource a portion of the CONUS ETC. Therefore, TRADOC
    recommended that the Army approve the new fixed site MCTC structure and
    reprogram remaining authorizations to resource the ETC.

    In March 2006, the Army G-3/5/7 completed a final review of the “CTC Way
    Ahead” recommendations and decided to establish a CONUS ETC in FY 2009
    that could be operationally capable in FY 2010. In April 2007, the Army G-3/5/7
    approved the CONUS ETC Concept Plan. To staff this initiative, TRADOC will
    realign 278 active component military authorizations from the MCTCs to the ETC
    table of distribution and allowances as of October 1, 2008. Specifically, JRTC
    will provide 240 military authorizations, and NTC will provide 38 military
    authorizations.


Observer/Controllers at Army Maneuver Combat Training
  Centers
    Army MCTCs have successfully trained ground forces for Operation Iraqi
    Freedom with the number of assigned Observer/Controllers. However, the
    planned restructuring of Observer/Controller authorizations at JRTC and NTC
    could negatively impact future training of ground forces.

    Observer/Controller Vacancy Levels. Since FY 2005, JRTC and NTC have
    experienced fluctuations in Observer/Controllers assigned. Vacancy levels at
    JRTC have more than doubled in the last 3 years, from 9 percent of their
    authorized strength in FY 2005 to 22 percent in FY 2007. In addition, NTC has
    experienced Observer/Controller vacancy levels fluctuating between 12 and
    31 percent. Officials at JRTC and NTC stated that, even with current
    Observer/Controller vacancies, they are able to adequately train ground force
    units. The Army’s planned restructuring, however, could impact this ability
    under current manning priorities.

    Realignment of Observer/Controller Authorizations. To comply with
    modularity and ARFORGEN requirements, and provide units with MCTC events
    as they prepare to deploy, the Army plans to realign 278 Observer/Controller


                                        5

     authorizations from CONUS Army MCTCs and establish a new ETC in FY 2009.
     JRTC must provide 240 military authorizations, which is approximately
     28 percent of its FY 2007 military authorizations, and NTC must provide an
     additional 38 military authorizations, which is approximately 6 percent of its
     FY 2007 military authorizations. Realignment of these positions will be reflected
     in the FY 2009 table of distribution and allowances of the MCTCs. However, the
     total number of annual training events needed to support ARFORGEN, between
     34 and 36, will not decrease after the establishment of the ETC.

     Impact on Ground Forces Training. The planned restructuring of CONUS
     Army MCTC operations groups could negatively impact future training of ground
     forces. In the past 3 years, vacancy levels for Observer/Controllers have risen as
     high as 31 percent. In FY 2009, NTC and JRTC will have to provide 6 and
     28 percent of their current military authorizations, respectively, while the number
     of annual training events at the MCTCs will remain constant. Essentially, the
     MCTCs will have to continue to conduct full-scale mission rehearsal exercises,
     capturing and providing critical training information in the after-action reviews,
     with fewer Observer/Controllers if current manning priorities are not changed.
     Operating at this level could negatively impact the effectiveness of mission
     rehearsal exercises conducted at the MCTCs.


Effectiveness of Mission Rehearsal Exercises
     If Observer/Controller positions are not staffed near full-strength in FY 2009,
     effectiveness of the mission rehearsal exercises that prepare units to deploy in
     support of Operation Iraqi Freedom could be negatively impacted. Decreased
     Observer/Controller staffing levels may degrade the realism of training or
     decrease the amount of feedback that units receive from training events.

     Realism of Training. Decreased Observer/Controller staffing levels may impact
     the realism of mission rehearsal exercises by requiring MCTCs to limit a unit’s
     freedom of maneuver during training exercises. Freedom of maneuver is crucial
     to achieving superior combat power at operational and tactical levels of war.
     Freedom of maneuver ultimately leads to success on the battlefield, and testing
     this ability is key for units going through a mission rehearsal exercise.

     At MCTCs, units are not permitted to move within the exercise area without
     Observer/Controller coverage. This ensures that units adhere to rules of
     engagement and allows Observer/Controllers to fully capture units’ actions to
     provide adequate feedback in the after-action review. If the MCTC has to limit a
     unit’s freedom of maneuver because there are not enough Observer/Controllers
     available to accompany them through the exercise, the unit would not be able to
     realistically react to exercise situations or fully test systems, decisions, or abilities
     to act under realistic wartime conditions.

     Feedback from Training. Decreased Observer/Controller staffing levels can
     prevent visibility on warfighting functions at all levels of command and
     maneuver, which may decrease the amount of feedback a unit receives from
     training. Fewer Observer/Controllers means that Observer/Controllers will not


                                             6

    always be available to provide coverage on multiple elements of training when
    platoons break down into squad, section, or team levels. Losing fidelity on a
    unit’s actions and decisions during training directly affects the ability of
    Observer/Controllers to capture problems, shortfalls, and successes, and report
    them through the after-action review process so the unit can identify corrections
    and solutions that are crucial to units preparing to deploy. Ultimately, this could
    result in a degradation of critical mission-essential training.

    Because mission rehearsal exercises at the MCTCs serve as the final collective
    training event for deploying units, it is critical that the unit train to the fullest
    extent and be able to discover and address any issues with its systems, actions,
    and decision-making abilities during this time. The coverage provided by
    Observer/Controllers is critical for ensuring that units get the most effective
    mission rehearsal exercises by not limiting freedom of maneuver or the amount of
    information provided in the after-action reviews. If Observer/Controller positions
    are not staffed near full strength, units training in support of Operation Iraqi
    Freedom may not receive feedback that could be critical to the success of their
    mission.


Priority for Manning Observer/Controller Authorizations
    Current Army manning guidance will not support future changes to staffing of
    Observer/Controllers at Army MCTCs. Specifically, the “Headquarters
    Department of the Army Active Component Manning Guidance for Fiscal
    Year 2007,” dated March 1, 2007, does not give adequate priority to
    Observer/Controller authorizations in the staffing process. The guidance provides
    three priority categories:

           •	 “deployers,” such as deploying units and special mission units, which
              must be filled at 100 percent of authorizations;

           •	 “priority missions,” such as drill sergeants and recruiters, which must
              be filled at 100 percent of authorizations, except where otherwise
              noted; and

           •	 “remainder of units,” which are to be filled to the extent possible
              based on remaining available Army inventory.

    The guidance categorizes CTCs in the “remainder of units” category, which does
    not give them adequate priority to be filled at the strength necessary to maintain
    training capabilities.

    According to Army Regulation 350-50, “Combat Training Center Program,”
    January 24, 2003, TRADOC has responsibility to fill 100 percent of operations
    group personnel authorizations through permanent party assignment. TRADOC
    published additional guidance to assist in managing TRADOC’s military
    personnel fill in a reduced manning environment. According to the “TRADOC




                                          7

    Active Component Military Manning Guidance,” dated April 25, 2007, the
    minimum goal for officers at CTCs is a 70-percent fill rate, which is down from
    the previous target of 95 percent.

    Although Observer/Controller authorizations have been filled above 70 percent
    on average since FY 2005, a lower number of authorizations requires a higher
    level of manning to ensure the MCTCs can continue to meet their mission. For
    example, in FY 2006, JRTC received an average of 593 Observer/Controllers
    every quarter. In FY 2009, the proposed strength for JRTC Observer/Controllers
    is 611. Therefore, in order to maintain the same level of staffing, JRTC would
    have to be filled at approximately 97 percent of their 611 authorizations in
    FY 2009.

    To maintain the current level of training at JRTC and NTC, the Army must ensure
    that staffing levels at the CONUS MCTCs are sufficient to sustain the number of
    annual training events required for units training to deploy in support of
    Operation Iraqi Freedom. Therefore, the Army must update annual manning
    guidance to increase priority for Observer/Controllers at the MCTCs. Increasing
    priority for Observer/Controllers will ensure an adequate level of coverage for
    units training to support Operation Iraqi Freedom and will also ensure that units
    experience the most realistic and effective training possible.


Management Comments on the Realignment of
 Observer/Controller Authorizations, and Audit Response
    Management Comments. The Director of Military Personnel Management,
    Army G-1 stated that there are no personnel assigned against the 278 active
    component military authorizations that TRADOC will realign from NTC and
    JRTC to the ETC. The Director also stated that under the restructuring plan,
    CONUS CTCs will realize a net gain of 86 total authorizations, and JRTC will
    obtain an additional 72 Observer/Controller positions in FY 2009.

    Audit Response. We agree that the CONUS CTCs will realize a net gain of
    86 authorizations under the CTC restructuring plan, and that 72 of these
    authorizations are Observer/Controllers for JRTC. However, these
    Observer/Controller authorizations for JRTC in FY 2009 will be assigned to the
    ETC, not the fixed-site training center. Furthermore, although the ETC will
    provide additional training capacity to meet ARFORGEN requirements through
    training events at home stations, the ETC is not intended to replace the training
    conducted at the MCTCs. The number and scale of the mission rehearsal
    exercises conducted at the MCTCs will remain the same even after the ETC is
    fully operational.




                                         8

Recommendation, Management Comments, and Audit
  Response
    We recommend that the Director of Military Personnel Management, Army
    Office of the Deputy Chief of Staff for Personnel, G-1, update the Active
    Component Manning Guidance to increase the manning priority of
    Observer/Controllers at Maneuver Combat Training Centers to ensure that
    the fidelity of training continues.

    Management Comments. The Director of Military Personnel Management,
    Army G-1 neither concurred nor nonconcurred with the recommendation. The
    Director stated that because of pressure to meet established manning goals, the
    Army, including TRADOC, is being decremented to facilitate the manning of
    currently deployed and next-to-deploy forces. The Army is currently reviewing
    the Active Component Manning Guidance, including an in-depth analysis of all
    Army organizations, and will consider our report during this review.

    Audit Response. The Army comments are partially responsive. We believe the
    Army’s review of the Active Component Manning Guidance partially satisfies the
    recommendation. We understand the challenges the Army faces in prioritizing
    and filling manning requirements. However, we believe that the Army, as part of
    its ongoing review of the Active Component Manning Guidance, must increase
    the priority for filling Observer/Controller positions at the MCTCs to ensure
    deploying units receive realistic and effective training. We request that
    management provide comments on the final report, including a statement of
    concurrence or nonconcurrence, planned actions, and the dates for planned
    actions.




                                        9

Appendix A. Scope and Methodology 

   We conducted this performance audit from January 2007 through September 2007
   in accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We interviewed personnel at the Army Office of the Deputy Chief of Staff,
   G-3/5/7; the Army Office of the Deputy Chief of Staff for Personnel, G-1, Human
   Resource Command; and the Army Training and Doctrine Command, Deputy
   Chief of Staff, G-1/4. We also visited the National Training Center at Fort Irwin,
   California; the Joint Readiness Training Center at Fort Polk, Louisiana; the Joint
   Multinational Readiness Center in Hohenfels, Germany; the Joint Multinational
   Training Command in Grafenwoehr, Germany; and the United States Army in
   Europe, G-3, in Heidelberg, Germany. Due to time constraints, we limited our
   review to CONUS MCTCs, specifically JRTC and NTC.

   We reviewed Army Regulations and training handbooks to obtain background
   information regarding the CTC program and the responsibilities of
   Observer/Controllers. We reviewed correspondence between the Army G-3/5/7
   and TRADOC, from October 2004 to May 2007 regarding the “CTC Way Ahead”
   and ETC Concept Plan. We reviewed Version 4.0 of the “ETC Operational and
   Organizational Plan,” dated February 28, 2007. We reviewed Department of the
   Army FY 2007 Manning Guidance and TRADOC Active Component Manning
   Guidance. We also reviewed briefings and other documentation provided by the
   Army G-3/5/7 regarding the CTC tables of distribution and allowances, as well as
   historical and projected staffing levels of Observer/Controllers at JRTC and NTC.

   Use of Computer-Processed Data. We did not use computer-processed data to
   perform this audit.

   Government Accountability Office High-Risk Area. The Government
   Accountability Office has identified several high-risk areas in DoD. However,
   this report does not address any of the identified high-risk areas.




                                       10 

Prior Coverage
    During the last 5 years, the Government Accountability Office (GAO) has issued
    five reports discussing DoD training. Unrestricted GAO reports can be accessed
    over the Internet at http://www.gao.gov.

    GAO-07-936, “Military Training: Actions Needed to More Fully Develop the
    Army’s Training Strategy for Training Modular Brigades and Address
    Implementation Challenges,” August 6, 2007

    GAO-06-802, “Military Training: Management Actions Needed to Enhance
    DoD’s Investment in the Joint National Training Capability,” August 11, 2006

    GAO-06-193, “Military Training: Funding Requests for Joint Urban Operations
    Training and Facilities Should Be Based on Sound Strategy and Requirements,”
    December 8, 2005

    GAO-05-548, “Military Training: Action Needed to Enhance DoD’s Program to
    Transform Joint Training,” June 21, 2005

    GAO-04-547, “Military Operations: Recent Campaigns Benefited from Improved
    Communications, but Barriers to Continued Progress Remain,” June 28, 2004




                                       11 

Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Deputy Chief of Staff for Personnel, G-1
Deputy Chief of Staff for Operations, Plans, and Policy, G-3/5/7

Department of the Navy
Naval Audit Service
Naval Inspector General

Department of the Air Force
Auditor General, Department of the Air Force
Air Force Audit Agency

Combatant Command
Commander, U.S. Central Command

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform


                                          12 

Department of the Army Comments 



                                     DEPARTMENT OF THE ARMY 

                                 OFFICE OF THE DEPUTY CHIEF OF STAFF G-1 

                                           300 ARMY PENTAGON 

                                        WASHINGTON DC 20310-0300 





     DAPE-MPE                                                                19 NOV 2007

     MEMORANDUM FOR Inspector General, Department of Defense, 400 Army Navy
     Drive, Arlington, Virginia 22202-4704

     SUBJECT: Report on Training for U.S. Ground Forces at Army Maneuver Combat
     Training Centers (MCTC) (Project No. D2007-D000LH-0108.000)


     1. Purpose: To provide comments on draft report as requested in memorandum dated
     27 September 2007.

     2. Discussion:

        a. Background.

            (1) On 1 October 2007, the DCS, G-1 received a draft Inspector General report
     indicating that future training of U.S. ground forces could be negatively impacted due to
     planned restructuring of Army MCTC Operations Groups. The report specifically
     addresses the realignment of Observer/Controller authorizations at CONUS Army
     MCTCs and the subsequent impact on training for units preparing to deploy in support
     of Operation Iraqi Freedom, The report further requests DCS, G-1, Director of Military
     Personnel Management comments.

            (2) In October 2004, the Army G-3/5/7 tasked TRADOC to coordinate a holistic
     review of the Combat Training Center (CTC) Program. TRADOC made several
     recommendations, including the restructuring of Operations Groups and the
     establishment of an Exportable Training Capability (ETC) to mitigate the CONUS CTC
     capacity shortfall. The Army G-3/5/7 approved the recommended changes in April
     2007.

        b. Comments.

            (1) The report contends that the current realignment plan reduces the number of
     Observer/Controller positions, negatively impacting the MCTCs effectiveness and
     availability for training. However, the redesign of the TDAs at both the National Training
     Center (NTC) and the Joint Readiness Training Center (JRTC) were required to support
     the new Modular Brigade Combat Team (BCT) structure and capabilities. To staff the
     ETC, TRADOC will realign 278 (JRTC-240, NTC-38) active component military
     authorizations from the MCTCs to the ETC Table of Distribution and Allowances (TDA)
     and HQDA will realign 246 authorizations to resource the remainder of the ETC and




                                                   13 

DAPE-MPE
SUBJECT: Report on Training for U.S. Ground Forces at Army Maneuver Combat Training
Centers (Project No. D2007-DOOOLH-0108.000)


growth within the BCTP. It is important to note that neither the JRTC nor NTC had
personnel assigned against these authorizations that were transferred to the ETC.

       (2) Under the restructuring plan, CONUS CTCs realize a net gain of 86 total
authorizations and JRTC obtains an additional 72 coded Observer/Controller positions
in FY09. In addition, the ETC, which will be a sub-element of JRTC that will travel to
unit home-stations to conduct training events and evaluations, will consist of 364
positions, of which 299 are Observer/Controller coded positions.

       (3) Additional conditions decrement TRADOC manning to include a shortage of
officers Army wide, significant requirements to fill Transition Teams, WIAS and Joint
Manning Document Positions. TRADOC will continue to see designated Priority
Missions (Drill Sergeants, Recruiters, Initial Entry Training Company
Commanders/Executive Officers, USAREC Company Commanders) filled to a floor of
100 percent aggregate strength while the remainder of its units will be filled in
accordance with the available Army inventory. Redeploying units in the next 6-8
months should provide additional personnel which can be used to fill some TRADOC
shortages.

       (4) The Army is pressed to meet established manning goals. Rising non-
deployable unit averages and number of Soldiers assigned to Rear Detachments have
resulted in a higher targeting of Brigade Combat Teams (BCTs) in order to meet
manning goals. As a result, the Rest of the Army (ROTA), to include TRADOC, is being
decremented to facilitate manning of currently deployed and next to deploy forces.

       (5) The Army is currently reviewing the Active Component Manning Guidance to
include an in-depth analysis of all Army organizations to include the currently deployed
force, next deploying units and TRADOC. Your report will be useful in this review.

3. Thank You for the opportunity to comment on this report. Point of contact is Colonel
Debbra Head, Chief, Enlisted Career Systems Division, 703-695-7992.

FOR THE DEPUTY CHIEF OF STAFF, G-1:




                                        •GtNA S. FARRISEE
                                         Brigadier General, GS
                                         Director of Military
                                            Personnel Management




                                           14 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Readiness and Operations Support prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Wanda A. Scott
Robert F. Prinzbach
Timothy M. Wimette
Melissa M. Quealy
Hillary J. Smith
Deanne B. Curry
Michael N. Hepler
Matthew D. Schwersenska
Monica L. Noell
Allison E. Tarmann
